LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

December 16, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-386: MONROE COUNTY COMMISSION V. A.A. NETTLES, SR. PROPERTIES
LIMITED AND EULA LAMBERT BOYLES
Dear Sir or Madam:
I hereby certify that at the request of counsel for Respondents A.A. Nettles, Sr.
Properties Limited and Eula Lambert Boyles, on December 16, 2019, I caused service
to be made pursuant to Rule 29 on the following counsel for the Petitioner:
PETITIONER:
Sarah Elaine Harrington
Goldstein & Russell, P.C.
7475 Wisconsin Avenue
Suite 850
Bethesda, MD 20814
202-362-0636
sharrington@goldsteinrussell.com
This service was effected by depositing three copies of a Brief in Opposition in
an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 16th day of December 2019.

